No. _______

In The

Supreme Court of the United States
IN

THE

MATTER OF 8SPEED8, INC.,

Debtor.

VIBE MICRO, INC.,
v.

Petitioner,

SIG CAPITAL, LLC,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

APPENDIX

Torrence E.S. Lewis
Counsel of Record
LAW OFFICE OF
TORRENCE E.S. LEWIS
31 Churchill Road
Pittsburgh, PA 15235
(412) 871-5931
torrencelewis@federalappeals.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

A1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
IN THE MATTER OF 8SPEED8, INC.
VIBE MICRO, INC.,

Appellant,

No. 17-16277
D.C. No.
2:14-cv-01618RFB

v.
SIG CAPITAL, LLC,

OPINION
Appellee

Appeal from the United States District Court
for the District of Nevada
Richard F. Boulware II, District Judge, Presiding
Argued and Submitted November 15, 2018
San Francisco, California
Filed April 29, 2019
Before: Susan P. Graber, Stephanie Dawn Thacker, *
and Mark J. Bennett, Circuit Judges.

The Honorable Stephanie Dawn Thacker,
United States Circuit Judge for the U.S. Court of Appeals for the Fourth Circuit, sitting by designation.
*

A2
IN THE MATTER OF 8SPEED8, INC.
Opinion by Judge Thacker;
Dissent by Judge Bennett

SUMMARY **

Bankruptcy
The panel affirmed the district court’s decision affirming the bankruptcy court’s denial of a request for
statutory damages made by a 50% shareholder in an
involuntary debtor following dismissal of the bankruptcy case.
The panel held that the shareholder lacked standing to seek damages under 11 U.S.C. § 303(i) because
it was not the debtor.
Dissenting, Judge Bennett wrote that Miles v.
Okun (In re Miles), 430 F.3d 1083 (9th Cir. 2005),
holding that a third party could not seek damages under § 303(i), was not dispositive, and the shareholder
did not lack standing to seek damages and attorneys’
fees that would be awarded to the debtor, regardless
of the debtor’s ability to defend itself in the
This summary constitutes no part of the opinion
of the court. It has been prepared by court staff for the
convenience of the reader.
**

A3
bankruptcy action, and notwithstanding that the
shareholder actually obtained a dismissal on behalf of
the debtor.

COUNSEL
Torrence E.S. Lewis (argued), Law Offices of Torrence
E.S. Lewis, Pittsburgh, Pennsylvania, for Appellant.
David A. Stephens (argued), Stephens Gourley & Bywater, Las Vegas, Nevada, for Appellee.

OPINION
THACKER, Circuit Judge:
This case asks whether a 50% shareholder of an
involuntary debtor may seek damages under 11
U.S.C. § 303(i). We hold that it may not. Accordingly,
we affirm the decision of the district court.
In March 2012, 8Speed8, Inc. was incorporated in
the state of Nevada. Appellant Vibe Micro, Inc. is a
50% owner of 8Speed8’s voting stock. Appellee SIG
Capital, Inc. is a creditor of 8Speed8 and owns 20 million contingent shares.
On December 13, 2013, SIG filed the involuntary
bankruptcy petition at the center of this dispute.
8Speed8 never appeared in the bankruptcy action.

A4
Instead, on January 10, 2014, Vibe Micro filed a motion to dismiss the bankruptcy. Vibe Micro also asked
for costs, fees, and actual and punitive damages under
§ 303(i). The bankruptcy court held a hearing August
28, 2014. At the hearing, SIG conceded that dismissal
was appropriate. The bankruptcy court agreed but denied Vibe Micro’s request for statutory attorney’s fees
and damages.
The court concluded that Vibe Micro did not have
standing under § 301(i). The district court affirmed
that decision, and this appeal followed.
We review the bankruptcy court’s interpretation of
bankruptcy statutes de novo. See Sofris v. MapleWhitworth, Inc. (In re Maple-Whitworth, Inc.), 556
F.3d 742, 745 (9th Cir. 2009). No deference is given to
the district court’s review of that decision. See Higgins
v. Vortex Fishing Sys., Inc., 379 F.3d 701, 705 (9th Cir.
2004).
Section 303(i) provides:
If the court dismisses a petition under this
section other than on consent of all petitioners and the debtor, and if the debtor does
not waive the right to judgment under this
subsection, the court may grant judgment–
(1) against the petitioners and in favor
of the debtor for–

A5
(A)costs; or
(B) a reasonable attorney’s fee; or
(2) against any petitioner that filed the
petition in bad faith, for–
(A) any damages proximately
caused by such filing; or
(B) punitive damages.
11 U.S.C. § 303(i) (emphasis added).
In In re Miles, we considered whether third parties
mayseek damage s under § 303(i). See Miles v. Okun
(In re Miles), 430 F.3d 1083, 1093–94 (9th Cir. 2005).
Specifically, we examined two interpretations of
standing to seek § 303(i) damages: Either the presence of the phrase “in favor of the debtor” in § 303(i)(1)
(regarding costs and attorney’s fees) limits standing
to collect all § 303(i) damages to the debtor, or the
omission of that phrase from § 303(i)(2) (regarding
other damages for bad faith filings) allows persons
other than the debtor to collect damages for bad faith
filings, but not costs and attorney’s fees. See id. At
1093. In evaluating those competing interpretations,
we considered legislative history, relevant caselaw,
and public policy to determine the proper reading of
the statute. See id. (citing Barstow v. IRS (In re
Bankr. Estate of MarkAir, Inc.), 308 F.3d 1038, 1043–
46 (9th Cir. 2002)). With those factors in mind, we
concluded that § 303(i) limits standing to recover

A6
statutory damages resulting from an involuntary
bankruptcy proceeding to the debtor. Those same factors compel a similar result here.
First, the relevant House and Senate Reports suggest that only the debtor has standing to seek § 303(i)
damages. See H.R.Rep. No. 95-595, at 324 (1977), reprinted in 1978 U.S.C.C.A.N. 5963, 6280; S.Rep. No.
95-989, at 34 (1978), reprinted in 1978 U.S.C.C.A.N.
5787, 5820. According to those reports, “if a petitioning creditor filed the petition in bad faith, the court
may award the debtor any damages proximately
caused by the filing of the petition.” Id. “This specific
reference to the ‘debtor’ is a strong indication that
Congress intended only the debtor to have standing to
seek damages.” Franklin v. Four Media Co. (In re
Mike Hammer Prods., Inc.), 294 B.R. 752, 754 (B.A.P.
9th Cir. 2003).
Second, appellate courts in this circuit have twice
considered whether a non-debtor can seek damages
under § 303(i), and twice those courts have decided it
cannot. See In re Miles, 430 F.3d at 1093–94; In re
Hammer, 294 B.R. at 753–54. Appellant’s attempts to
distinguish Miles on its facts are unavailing. Appellant notes that, in Miles, the debtor actually appeared
in the involuntary proceedings, but in contrast,
8Speed8 never appeared in this case. Although true,
Appellant’s distinction does not require disparate
treatment.

A7
Appellants would have this court believe they are
mere martyrs, standing up for the interests of
8Speed8 when no one else would. But, as valiant as
Vibe Micro’s intentions may have been, they were unnecessary. The Code has within its sections a remedy
for cases like this: Section 305 gives the bankruptcy
court the power to dismiss an involuntary petition sua
sponte. “The court, after notice and a hearing, may
dismiss a case . . . at any time if . . . the interests of
creditors and the debtor would be better served by
such . . . .” 11 U.S.C. § 305(a); see also In re Accident
Claims Determination Corp., 146 B.R. 64, 67–68
(Bankr. E.D.N.Y. 1992) (dismissing an involuntary
petition where the petitioning creditors were intending to harass the debtor and its principals); In re Westerleigh Dev. Corp., 141 B.R. 38, 41 (Bankr. S.D.N.Y.
1992) (dismissing an involuntary petition after finding that the petition was filed by a corporate shareholder to gain leverage over another shareholder). Accordingly, Vibe Micro’s appearance in this case was
just as voluntary as was the appearance of the third
parties in Miles.
Third, reading § 303(i) to permit only the debtor to
seek damages is consistent with its purpose and the
policy interests underlying it. Section 303(i) is intended to alleviate the consequences that involuntary
proceedings impose on the debtor. Those consequences include “loss of credit standing, inability to
transfer assets and carry on business affairs, and public embarrassment.” In re Reid, 773 F.2d 945, 946 (7th
Cir. 1985). A third party, who intervenes freely in an

A8
involuntary action, does not face those same consequences. Even if it did, § 303(i) would still not guarantee costs, fees, or damages. An award under § 303(i)
—which states that the court “may” award costs, fees,
or damages—is not mandatory. See Susman v.
Schmid (In re Reid), 854 F.2d 156, 159 (7th Cir. 1988)
(explaining that an award of attorney’s fees under §
301(i) is “committed to the discretion of the district
court”); Bankers Tr. Co. BT Serv. Co. v. Nordbrock (In
re Nordbrock), 772 F.2d 397, 400 (8th Cir. 1985) (stating that a motion for attorney’s fees is addressed in
the discretion of the court); In re Kidwell, 158 B.R.
203, 217 (Bankr. E.D. Cal. 1993) (stating that “the
better view is that [an award of costs and fees is] discretionary and not mandatory”); In re Johnston
Hawks Ltd., 72 B.R. 361, 365 (Bankr. D. Haw. 1987)
(stating that “the award of attorney’s fees and costs is
discretionary”). Indeed, “the plain language of the
statute clearly contemplates that fees and costs will
not be awarded in all cases, even though a party will
ordinarily incur attorneys’ fees in seeking to dismiss
the petition.” In re Reid, 854 F.2d at 159.
AFFIRMED.

BENNETT, Circuit Judge, dissenting:
The Majority holds that, under Miles v. Okun (In
re Miles), 430 F.3d 1083 (9th Cir. 2005), a third party
who appears for a debtor and successfully defends
against an involuntary bankruptcy petition can never

A9
request that the debtor be awarded costs, a reasonable attorney’s fee, or damages. The Majority finds that
this is the case even when, as here, the debtor never
appeared in the involuntary bankruptcy action, was
prevented from appearing by its deadlocked governance, and the third party who appeared on behalf of
the debtor successfully defended the involuntary
bankruptcy. This rule, according to the Majority, is
absolute, regardless of how closely related the third
party is to the debtor, and even though the third party
only seeks an award in favor of the debtor. 1 Because
Miles never went so far, and because I believe the Majority’s rule is inconsistent with both the relevant
statutory text and the policies underlying the Bankruptcy Act, I respectfully dissent.
Appellant Vibe Micro, Inc. owned 50% of the
debtor 8Speed8’s vested voting shares. Appellee SIG,
LLC owned contingent shares in 8Speed8, which had
not vested at the time of the involuntary bankruptcy
petition. 8Speed8’s board of directors reflected its collective ownership, with a director appointed from
each of the owners, including SIG. Any action taken

I don’t believe Appellant’s position on this is unclear—it sought fees and damages to be awarded to
the debtor. My dissent goes to this circumstance
only—a third party asking that fees and damages be
awarded to the debtor in a case where the debtor has
not appeared, and the third party appeared on behalf
of the debtor.
1

A10
on behalf of the company required a two-thirds majority of the directors or the shareholders.
On December 13, 2013, SIG filed an involuntary
bankruptcy petition against 8Speed8. According to
Vibe Micro, both SIG and Luxor Entertainment,
Inc.—the other 50% shareholder—intended to liquidate 8Speed8 contrary to Vibe Micro’s position and inconsistent with its interests. Since “no one else could
or would appear,” Vibe Micro filed a motion to dismiss
on behalf of 8Speed8, which the bankruptcy court
granted. Vibe Micro also sought, on behalf of the
debtor, 1) costs or a reasonable attorney’s fee, pursuant to 11 U.S.C. § 303(i)(1); and 2) “damages proximately caused by” what it claimed was the bad faith
filing of the petition, pursuant to 11 U.S.C. § 303(i)(2).
The bankruptcy court granted Vibe Micro’s motion to
dismiss, but it (and later the district court) held that
Vibe Micro did not have standing to seek either fees
or damages that would be awarded to the debtor because Vibe Micro was not actually “the debtor.”
Involuntary bankruptcy is a drastic course of action that carries significant consequences, and “[f]iling an involuntary petition should be a measure of
last resort.” Higgins v. Vortex Fishing Sys., Inc., 379
F.3d 701, 707 (9th Cir. 2004). The fee-shifting and
damages provisions of § 303(i) are intended to deter
frivolous filings. See id. (regarding fee-shifting under
§ 303(i)(1)); In re Fox Island Square P’ship, 106 B.R.
962, 968 (Bankr. N.D. Ill. 1989) (regarding damages
under § 303(i)(2)) (“This deterrent should be directed

A11
not merely to the petitioning creditor in the case at
bar, but also should serve as an example for similar
circumstances in future cases.” (quoting In re Advance Press & Litho, 46 B.R. 700, 706 (Bankr. D. Colo.
1984)). Appropriate deterrence serves not only to protect debtors from the very significant (and often irreparable) consequences that flow from an involuntary
bankruptcy petition 2, but also to try to insulate the
bankruptcy court from being unnecessarily and improperly used as a tool to resolve disputes. See Advance Press, 46 B.R. at 702 (“It is . . . obvious that the
use of the bankruptcy court as a routine collection device would quickly paralyze this court.” (quoting In re
SBA Factors of Miami, 13 B.R. 99, 101 (Bankr. S.D.
Fla. 1981)). For these reasons, “there must be available some remedy for the improper filing of an involuntary petition.” In re Ed Jansen’s Patio, Inc., 183 B.R.
“An allegation of bankruptcy is a charge that
ought not to be made lightly. It usually chills the alleged debtor’s credit and his sources of supply. It can
scare away his customers. It leaves a permanent scar,
even if promptly dismissed.” In re SBA Factors of Miami, 13 B.R. 99, 101(Bankr. S.D. Fla. 1981); see also
2 Collier on Bankruptcy 303.37 (16th ed. 2018)
(“Since the Code was enacted in 1978, some people
have used section 303 as a means of harassment; this
was an effective technique in the sense that even if
the wrongful cases were dismissed (after effort to be
sure), they resulted in serious consequences for the
victim of the wrongful filing.”).
2

A12
643, 644 (Bankr. M.D. Fla. 1995) (permitting the assignee for benefit of creditors to assert a claim for
costs, fees, and damages on behalf of the debtor under
§ 303(i)).
In keeping with the purpose and nature of § 303(i),
parties with a close relationship to a debtor, who have
actually defended against an involuntary bankruptcy
petition, have been allowed to collect damages and
fees. See, e.g., Fox Island, 106 B.R. at 967 (holding
that non-petitioning partners can collect damages for
defending the partnership against an involuntary petition filed by other partners); see also Havens v.
Leong P’ship, 586 B.R. 760 (Bankr. N.D. Cal. 2018)
(holding that an alleged partner in a fictitious partnership had standing to seek damages), appeal docketed, No. 18-15679. 3
In fact, the cases in which non-debtors successfully claimed damages each involved a debtor who did
not appear and a third party closely aligned with the
debtor. Compare, e.g., Ed Jansen’s Patio, 183 B.R. at
644 (assignee for benefit of non-petitioning creditors)
and Inre Synergistic Techs., Inc., No. 07-31733-SGJ7, 2007 WL 2264700, at *6 (Bankr. N.D. Tex. Aug. 6,
2007) (33% shareholder and board member), with
Franklin v. Four Media Co. (In re Mike Hammer
Prods., Inc.), 294 B.R. 752 (B.A.P. 9th Cir. 2003)
(holding creditors, who had no other affiliation to the
debtor, did not have standing to seek costs or damages
under § 303(i)).
3

A13
Similarly, the Southern District of New York
found that a 50% shareholder had standing to contest
an involuntary bankruptcy petition: “[T]he debtor in
the instant case is unable to answer the petition because its only two shareholders are on either side of
the case, with neither having authority to act for the
corporation.” 4 In re Westerleigh Dev. Corp., 141 B.R.
38, 40 (Bankr. S.D.N.Y. 1992); see also In re Synergistic Techs., Inc., No. 07-31733- SGJ-7, 2007 WL
2264700, at *5 (Bankr. N.D. Tex. Aug. 6, 2007)
(“[W]hen there is a corporate governance deadlock
that prevents a corporate debtor from taking a position with regard to an involuntary bankruptcy petition, the court should allow shareholders to assert positions [including requests for damages under §
303(i)] on behalf of the alleged debtor.”). Decisions allowing third parties that successfully defend against
involuntary bankruptcy petitions to seek fees and
damages that would be awarded to the debtor are in
accord with the actual language of § 303(i)(1) which
permits a judgment for fees or costs “against the petitioners and in favor of the debtor,” and are certainly
The Majority cites Westerleigh for the proposition
that a bankruptcy court can dismiss a petition sua
sponte if it is filed by a shareholder to gain leverage
against another shareholder. Maj. Op. at 6. But the
bankruptcy court in Westerleigh did not act sua
sponte. Rather, the court found that the non-petitioning 50% shareholder had standing to contest the involuntary bankruptcy petition and granted that
shareholder’s motion to dismiss. 141 B.R. at 41.
4

A14
not inconsistent with § 303(i)(2), which permits an
award of damages against a petitioner that files a petition in bad faith. See Ed Jansen’s Patio, 183 B.R. at
644.
Here, Vibe Micro owned 50% of the debtor’s stock
and stepped into the debtor’s shoes to defend against
the involuntary bankruptcy proceeding, and the party
that filed the involuntary bankruptcy petition was itself a shareholder and on the board of directors. SIG
admitted that 8Speed8 was essentially non-functional
because of the shareholders’ disputes: “[T]here was a
breakdown. There was a lack of communication.
There was a shareholder meeting called that was—
that not all the shareholders wanted to attend.” Any
action on behalf of 8Speed8 required a two-thirds majority, either of the board (which included SIG) or of
the shareholders (which were split 50–50). There is no
indication that a vote of any kind ever took place. Under these circumstances, it is likely that Vibe Micro
was the only party willing or able to defend 8Speed8
against involuntary bankruptcy, as it has asserted.
The bankruptcy court should have at least determined whether Vibe Micro was correct in its assertion
that, but for its actions, the debtor’s interests would
have gone wholly unrepresented and undefended. If
Vibe Micro was truly the only party willing and able
to act for 8Speed8, it should have been allowed to seek
fees and damages under § 303(i).
The cases cited by the Majority do not support its
rule. In re Mike Hammer Productions, Inc., which the

A15
Majority cites for the proposition that “Congress intended only the debtor to have standing to seek damages,” Maj. Op. at 5, stands only for the commonsense
proposition that if a party lacks standing to contest an
involuntary bankruptcy petition—as creditors do in
most circumstances—then it also lacks standing to
collect costs, fees, or damages under § 303(i). Franklin
v. Four Media Co. (In re Mike Hammer Prods., Inc.),
294 B.R. 752, 754–55 (B.A.P. 9th Cir. 2003). The case
says nothing about third parties who step into a
debtor’s shoes. 5 In fact, the court in Hammer appears
to recognize that third parties have standing to seek
damages when they represent the debtor. 294 B.R. at
755 (noting that in Ed Jansen’s Patio, 183 B.R. at 644,
the “assignee for benefit of creditors” was eligible to
recover damages as a “representative of the debtor’s
estate”; observing that the third party with standing
in Fox Island, 106 B.R. at 968, had “represented the
Partnership”; and citing approvingly to an American
Law Reports analysis of § 303(i)(1)(B) entitled “Standing of parties other than alleged debtor to seek award
of attorney’s fees”).
The Majority primarily relies on Miles to support
its holding that a third party can never collect damages, contending that “Appellant’s appearance in this
case was just as voluntary as the third parties in
There was no suggestion that the non-petitioning
creditors in Hammer were acting on behalf of the
debtor—they were, in fact, simultaneously suing the
debtor in state court. See 294 B.R. at 753.
5

A16
Miles.” Maj. Op. at 6. But Miles involved true third
parties—relatives of the debtors—who filed a separate suit in state court and who never appeared in the
underlying bankruptcy cases. 430 F.3d at 1086. Vibe
Micro is not such an independent third party—it was
acting as a 50% shareholder during a corporate governance breakdown. Vibe Micro has always asserted
that no other entity was willing to defend 8Speed8,
and Vibe Micro claimed fees and damages, not after
the fact and not for itself, as in Miles, but in the bankruptcy proceeding and for the debtor, as part of its motion to dismiss filed on the debtor’s behalf.
Miles primarily dealt with the meaning of §
303(i)(2), which allows for “damages against any petitioner” proximately caused by the bad faith filing of
an involuntary petition. Miles found that the language in § 303(i)(1)—that fees and costs could only be
awarded “in favor of the debtor”—should be read into
§ 303(i)(2). 430 F.3d at 1093– 94. Consequently, §
303(i)(2) did not allow relatives of the debtors to recover damages they personally suffered, even if proximately caused by the bad faith filing of an involuntary petition against their family members. Id. at
1094. Miles says nothing about a non-debtor who obtains a dismissal for the debtor and requests that
damages be awarded to the debtor under § 303(i)(2).
Moreover, reading the words “in favor of the debtor”
into § 303(i)(2), as Miles does, would seem to support,
rather than defeat, the claim made here by Vibe Micro. And, Miles certainly should not be read to bar a
non-debtor who successfully obtains dismissal of a

A17
petition from obtaining “judgment . . . in favor of the
debtor for . . . A) costs; or B) a reasonable attorney’s
fee” pursuant to § 303(i)(1). 6 Such a rule is inconsistent with the purposes underlying § 303(i) and
takes Miles beyond both its facts and its holding.
Of course, Vibe Micro should not automatically get
its fees and damages. I would remand this case for
factual findings that were never made. The bankruptcy court would need to, inter alia, 1) determine
whether any party other than Vibe Micro could have
appeared on 8Speed8’s behalf, see Fox Island, 106
B.R. at 967 (making a factual finding that a non-petitioning partner represented the partnership); 2) decide whether the filing was in bad faith; and 3) calculate the appropriate damages and fees—if any—in
light of the totality of the circumstances, Higgins, 379
F.3d at 707. I cannot agree with the Majority’s
We do not here face the question of whether
Miles bars a third party closely related to the debtor
from collecting fees or damages for itself when it acts
on behalf of a non-appearing debtor in successfully defending against an involuntary bankruptcy proceeding (though I note the policies underlying the statute
would counsel in favor of allowing such awards). As
noted, we are here faced only with the question of
whether a third party closely related to the debtor can
obtain fees or damages for the debtor in a case where
the debtor did not appear, and the third party obtained a dismissal of the involuntary petition on the
debtor’s behalf.
6

A18
determination that Vibe Micro lacks standing to seek
fees and damages that would be awarded to the
debtor, regardless of the debtor’s ability to defend itself in the bankruptcy action, and notwithstanding
that Vibe Micro actually obtained a dismissal on behalf of the debtor. Accordingly, I respectfully dissent.

A19
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
VIBE MICRO, INC.,
Plaintiff,
v.

Case No. 2:14-cv01618-RFB
ORDER

SIG CAPITAL, LLC.,
Defendant

I.

Introduction

This case was taken on appeal from the Bankruptcy Court on 10/1/14. A status conference was held
on 12/12/14. Before the Court are Appellant Vibe Micro’s Opening Brief [ECF No. 17], Appellee SIG Capital’s Answering Brief [ECF No. 19], and Appellant
Vibe Micro’s Reply Brief [ECF No. 24].
II.

Background

This case is an appeal from a final order of the
United States Bankruptcy Court for the District of
Nevada, issued on September 18, 2014. [ECF No. 1].
The issue on appeal is whether the bankruptcy court
erred in holding, as a matter of law, that Vibe Micro,
Inc., a shareholder of the involuntary debtor,

A20
8Speed8, Inc., did not have standing to seek statutory
remedies under 11 U.S.C. 303(i), and against SIG
Capital, Inc., Petitioner, for costs, attorneys’ fees, and
damages, on behalf of the debtor, 8Speed8, Inc.
The Court relies on and reiterates the findings of
fact of the bankruptcy court, which are reviewed for
clear error. In re Summers, 332 F.3d 1250, 1252 (9th
Cir. 2003). On December 13, 2013, Appellee SIG Capital, Inc., a Nevada corporation, filed an involuntary
petition for relief under Chapter 7 of the U.S. Bankruptcy Code, against the Debtor, 8Speed8, Inc. SIG
and Vibe Micro are both shareholders of 8Speed8. SIG
was also a creditor of 8Speed8, lending money to fund
8Speed8’s development of payment services kiosk systems. A shareholder dispute arose between SIG and
Vibe Micro, and Vibe Micro initiated arbitration proceedings against SIG. Subsequent to the initiation of
arbitration proceedings, in December 2013, SIG filed
an involuntary bankruptcy petition against 8Speed8.
8Speed8 never appeared in the bankruptcy action.
Vibe Micro appeared, and asserted that it was representing the interest of 8Speed8, and stated in its
pleadings that the debtor was not represented in the
proceedings. [ECF No. 18, p 93, Transcript of Bankruptcy Hearing].
In January 2014, Vibe Micro moved to dismiss the
bankruptcy. Vibe Micro also sought to obtain fees and
costs, actual damages, and punitive damages pursuant to 11 U.S.C. 303(i). SIG opposed the motion, and
the parties agreed that further discovery was

A21
necessary before the Court could decide the merits of
dismissal on the grounds asserted by Vibe Micro.
However, in June 2014, SIG decided that dismissal
was appropriate, and filed its own motion to dismiss.
The Bankruptcy Court held a hearing on both motions to dismiss in August 2014. At this hearing, the
Court deemed it appropriate to dismiss the case since
both parties had moved to dismiss. It then allowed
SIG and Vibe Micro to present oral arguments on the
issue of Vibe Micro’s entitlement to receive fees under
11 U.S.C. 303(i).
The Bankruptcy Court issued a verbal ruling on
the motions on September 15, 2014. It held that under
a Ninth Circuit holding, In re Miles, 430 F.3d 1083
(9th Cir. 2005), only the debtor has standing to seek
damages under Section 303(i). It entered an order dismissing the bankruptcy case and denying Vibe Micro
any attorneys’ fees and costs, and damages, on September 18, 2014.
III.

Legal Standard

On appeal to the District Court, the Bankruptcy
Court’s conclusions of law are reviewed de novo, and
its factual findings are reviewed for clear error. In re
Summers, 332 F.3d 1250, 1252 (9th Cir. 2003). Interpretation of statutes, and standing issues, are issues
of law, which are reviewed by the appellate court de
novo. In re Mike Hammer Prod., Inc., 294 B.R. 752,
753 (9th Cir. B.A.P. 2003).

A22

IV.

Discussion

The statute at issue in this case is 11 U.SC. §
303(i). Section 303(i), which provides for costs and
fees in the resolution of bankruptcy proceedings,
states: “If the court dismisses a petition under this
section other than on consent of all petitioners and the
debtor, and if the debtor does not waive the right to
judgment under this subsection, the court may grant
judgment – (1) against the petitioners and in favor of
the debtor for – (A) costs; or (B) a reasonable attorney’s fee; or (2) against any petitioner that filed the
petition in bad faith, for – (A) any damages proximately caused by such filing; or (B) punitive damages.
The Ninth Circuit analyzed the language of this statute in In re Miles, which, on its face, “is ambiguous as
to whether damages…can be awarded only in favor of
the debtor or in favor of other parties.” 430 F.3d 1083
(9th Cir. 2005). Looking at legislative history, determining that “reading 303(i)(2) to allow third parties
to seek damages could invite abuse of the system”,
and determining that “reading 303(i) to limit standing
to the debtor is consistent with the admittedly rather
sparse authority addressing this issue,” the Ninth
Circuit held that appellants in that case, a putative
debtor’s wife and children, did not have standing to
recover damages under the statute. In re Miles, 430
F.3d 1083 (9th Cir. 2005).
Vibe Micro argues that for purposes of fees and
costs, it functioned as the Debtor in the bankruptcy

A23
action, and thus had standing to seek an award on
8Speed8’s behalf. Vibe Micro argues that it was a fifty
percent vested shareholder trying to protect the
Debtor, 8Speed8. SIG disputes the contention that
Vibe Micro was a fifty percent vested shareholder,
and rather, states that Vibe Micro, SIG, and Luxor,
each were thirty percent shareholders in 8Speed8.
The bankruptcy court did not make a factual determination as to Vibe Micro’s ownership interest in
8Speed8, and the Court does not deem this determination material to whether, under In re Miles, a
shareholder, rather than the Debtor itself, may recover under Section 303(i). Vibe Micro raises facts regarding SIG’s purposes in bringing the involuntary
bankruptcy petition, and alleges that SIG was bringing it in bad faith, to subvert and/or evade the arbitration proceedings that Vibe Micro had initiated
amongst the shareholders, and to liquidate 8Speed8.
The bankruptcy court did not make a determination
as to whether the petition was brought in “bad faith”
by SIG. The Court does not find it necessary to reach
this issue, in order to address the issue on appeal of
whether Vibe Micro has standing, as a non-Debtor in
the bankruptcy proceeding, to assert a right to costs,
fees, and damages, under Section 303(i).
Vibe Micro further supports its position that it
functioned as the debtor in this action, by arguing
that its fees were incurred for the sole benefit of the
debtor. 8Speed8 never appeared in the bankruptcy action. Vibe Micro appeared, and asserted that it was
representing the interest of 8Speed8. However, Vibe

A24
Micro also filed a motion to compel against the President of 8Speed8, and stated in their pleadings that
the debtor was not represented in the proceedings.
Regardless of whether Vibe Micro felt that it was acting for the benefit of the debtor, there was never an
explicit determination by the bankruptcy court that
Vibe Micro was the Debtor in the underlying action.
Ultimately, the bankruptcy court held: “I find and
conclude that Vibe Micro lacks standing as a matter
of law. Consequently, the involuntary petition is dismissed with prejudice and Vibe Micro’s request for
fees, costs, and damages under Section 303(i) is denied.” This Court infers, from the bankruptcy court’s
ruling, that it determined Vibe Micro not to have been
the Debtor, because of its standing ruling. The Court
affirms the implicit conclusion of the bankruptcy
court, that Vibe Micro was not the debtor in the underlying action.
Vibe Micro further argues that In re Miles does
not control in this case. In re Miles involved three
daughters of the debtor who had never appeared or
represented the interests of the debtor in the involuntary bankruptcy proceedings, and therefore constituted third parties who were not entitled to costs and
fees; Vibe Micro argues that this case is distinguishable because Vibe Micro acted on behalf of the debtor.
However, absent a holding from the bankruptcy court
that Vibe Micro was the debtor in this action, for purposes of the Section 303(i) analysis, the Court does not
find this argument persuasive. Vibe Micro has not
raised any controlling or persuasive authority that

A25
states that a shareholder appearing in a bankruptcy
proceeding alleging that it represents the interests of
the named debtor, is entitled to fees, costs, and damages under Section 303(i) as though it were the
debtor. The plain holding of In re Miles was that
standing to assert a right to costs, fees, and damages
under Section 303(i) is limited to the debtor.
The Court rejects Vibe Micro’s attempt to invoke other authority. Specifically, Vibe Micro analogizes this case to a 1989 bankruptcy case from Illinois,
In re Fox Island Square P’ship, 106 B.R. 962, 966
(Bankr. N.D. Ill. 1989), where general partners filed
an involuntary petition against the Partnership, and
another general partner filed a motion to dismiss. In
that case, the Court found that the other general partner who filed the motion on behalf of the Partnership
had standing to recover under Section 303(i). In re
Fox Island is not controlling authority on this Court,
and it preceded In re Miles. Furthermore, as SIG correctly notes, In re Fox Island is distinguishable from
the context of a shareholder like Vibe Micro purporting to represent the interests of a corporation. Because individual partners are liable for the obligations of a partnership, it may make sense to allow a
general partner to represent the partnership in bankruptcy and to recover fees, but it does not follow that
shareholders have a right to act on behalf of a corporation in litigation. Such shareholders are liable for
the obligations of the corporation. The Court thus
finds that In re Fox is not controlling, and that to the
extent it differs from In re Miles, the Court must

A26
follow the holding of Miles. The Court agrees that the
legal posture of a general partner is distinguishable
from that of a shareholder in a corporation, for purposes of acting on behalf of the corporation in a bankruptcy proceeding.
Vibe Micro also argues that SIG waived its argument that Vibe Micro did not have standing to seek
statutory remedies, by failing to challenge its rights
to appear on behalf of 8Speed8 in the underlying proceeding. SIG did argue, in the underlying proceeding,
that Vibe Micro lacks standing to collect damages under Section 303(i). SIG argues that standing for purposes of contesting the involuntary bankruptcy is distinct from statutory standing to seek damages under
Section 303(i). Any interested party can seek dismissal of an involuntary bankruptcy. See, e.g., In re
MacFarlane Webber Assoc., 121 B.R. 694, 700-01
(Bankr. S.D.N.Y. 1990) (holding any party in interest
may move for dismissal of a bankruptcy for cause).
The Court agrees with SIG, and based on the extensive arguments on record in the underlying bankruptcy proceeding, where SIG maintained that Vibe
Micro did not have standing for fees, costs, and damages under 303(i), the Court finds that SIG has not
waived the argument.
Finally, Vibe Micro argues, in the alternative,
that the Court should find In re Miles wrongly decided, and should find that Vibe Micro has standing
to seek fees and costs under Section 303(i). In re Miles
is binding authority on this court, and the Court
agrees with its statutory analysis.

A27

V.

Conclusion

The Court has not been presented with any
controlling or persuasive authority to support the argument that a non-Debtor shareholder has standing
to pursue costs, fees, and damages, as the Debtor, under 11 U.S.C. Section 303(i). The Ninth Circuit, in In
re Miles, determined that only Debtors have standing
to recover costs, fees, and damages under that statute.
Therefore,
IT IS ORDERED that this Court AFFIRMS the
ruling of the bankruptcy court below, and finds that
Vibe Micro is not entitled to costs, fees, and damages
under 11 U.S.C. Section 303(i).
DATED: May 22, 2017.
/s/

,
Richard F. Boulware, II
United States District Judge

A28
UNITED STATES BANKRUPTCY COURT
DISTRICT OF NEVADA (LAS VEGAS)

IN RE:
8SPEED8, INC.
Debtor

Case No. 13-20371-led
Chapter 7
300 Las Vegas Blvd.
South
Las Vegas, NV 89101
Monday, September 15,
2014
3:03 p.m.

TRANSCRIPT OF SCHEDULING CONFERENCE
HEARING RE: CHAPTER 7
INVOLUNTARY PETITION. FEE AMOUNT 306.
RE: 8SPEED8, INC.
FILED BY PETITIONING CREDITOR(S): SIG CAPITAL, INC.
(ATTORNEY DAVID A. STEPHENS) [1];
MOTION TO DISMISS CASE WITH PROPOSED
ORDER FILED BY DAVID A. STEPHENS ON BEHALF OF SIG CAPITAL, INC. [31]
BEFORE THE HONORABLE LAUREL E. DAVIS
UNITED STATES BANKRUPTCY COURT JUDGE
APPEARANCES:

A29
For the Debtor:

Bauman, Loewe, Witt &
Maxwell, PLLC
By: KIRK NEVADA
WALKER, ESQ.
411 E. Bonneville Avenue, Suite 100
Las Vegas, NV 89101
(702) 462-6300

For SIG Capital, Inc.:

Stephens, Gourley &
Bywater
By: DAVID A. STEPHENS, ESQ.
3636 North Rancho
Drive
Las Vegas, NV 89130
(702) 656-2355
Snell & Wilmer, LLP
By: ERIC S. PEZOLD,
ESQ.
600 Anton Boulevard,
Suite 1400
Costa Mesa, CA 92626
(714) 427-7000

Audio Operator:

Andrea Mendoza, ECR

Transcription Company:

Access Transcripts, LLC
10110 Youngwood Lane
Fishers, IN 46038
(855) 873-2223

A30
www.accesstranscripts.com
Proceedings recorded by electronic sound recording,
transcript produced by transcription service.
(Proceedings commence at 3:03 p.m.)
THE CLERK: Please be seated.
THE COURT: 8Speed8, appearances, please?
MR. WALKER: Kirk Walker on behalf of Vibe Micro on behalf of 8Speed8.
MR. PEZOLD: Good afternoon, Your Honor. Eric
Pezold on behalf of SIG Capital.
MR. STEPHENS: David Stephens for SIG Capital
also, Your Honor.
THE COURT: All right. Thank you. And I'm sorry
if I didn't mention it before. Telephone appearances
are approved frequently by this Court, so.
This is the date and time set for my verbal ruling
with respect to the competing motions to dismiss, as
well as the request for an award of attorneys' fees,
damages, and costs under 303(i). I am still doing verbal rulings at this point, I think they're more efficient,
so I will read my ruling into the record and then the
prevailing party at that point would prepare an order

A31
that simply incorporates by reference my findings and
conclusions as stated on the record and just contains
the language of the order.
The Court has considered the parties' respective
motions to dismiss filed at Docket Entry 9 and Docket
Entry 31, as well as all declarations and moving papers filed with respect to each motion. The Court has
also considered the entire docket of this bankruptcy
case.
The Court enters the following findings of fact and
conclusions of law pursuant to Bankruptcy Rule 7052,
which incorporates by reference Rule 52 of the Federal Rules of Civil Procedure. Any finding of fact that
should be a conclusion of law is deemed a conclusion
of law. Any conclusion of law that should be a finding
of fact is deemed a finding of fact.
This Court has jurisdiction over matter relating to
the dismissal of an involuntary proceeding and request for damages under Section 303(i), and I cite In
re: Miles, 438 [sic] F.3d 1083, a Ninth Circuit decision
rendered in 2005.
On December 13th, 2013, SIG Capital, Inc. filed an
involuntary Chapter 7 against 8Speed8, Inc. That is
reflected as Docket Entry 1.
On January 10th, 2014, Vibe Micro, Inc., hereafter
referred to as "VMI," filed a motion on the debtor's behalf requesting either dismissal of or abstention from

A32
the case. That was filed at Docket Entry 9. In the motion, VMI described itself as a 50-percent shareholder
of 8Speed8. That is found in Docket Entry 1, Pages 1,
Line 16 through 17. I think that's probably Docket
Entry 9, not Docket Entry 1
.
On June 17th, 2014, SIG Capital filed its own motion requesting dismissal of this bankruptcy case.
That motion was filed at Docket Entry 31. In its response to SIG Capital's motion, VMI agreed that dismissal was warranted, yet continued to assert a claim
for damages under Section 1 303(i). That is contained
in Docket Entry 38. VMI's reply stated, in pertinent
part, and I quote:
"VMI contends that SIG should pay VMI's attorneys' fees, costs, and possibly punitive damages
as a result of this bad-faith suit."
And that is filed at Docket Entry 38, Page 2, Lines
16 through 17.
On July 21st, 2014 VMI filed a motion requesting
stay relief for the limited purpose of arbitrating who
controls 8Speed8 and who can make litigation and
settlement decisions on behalf of 8Speed8. That was
filed at Docket Entry 44.
On August 4th, 2014 I denied that motion, however, an order has not been uploaded by the parties
for me to sign, which denies the motion.

A33
Both VMI and SIG Capital assert that dismissal is
warranted. All that remains for me to decide is
whether or not VMI is entitled to recover fees, costs,
and damages under Section 303(i).
The case of In re: Miles, 430 F.3rd 1083, which was
decided by the Ninth Circuit in 2005, the Ninth Circuit specifically held that only the debtor has standing to seek damages under Section 303(i). VMI has
cited cases outside of the Ninth Circuit in support of
its request for an award of fees, costs, and damages
under Section 303(i).
As a bankruptcy judge who sits in the Ninth Circuit, I am bound by the controlling Ninth Circuit precedent. Based upon the Ninth Circuit decision of In re:
Miles, I find and conclude that VMI lacks standing as
a matter of law. Consequently, the involuntary petition is dismissed with prejudice and VMI's request for
fees, costs, and damages under Section 303(i) is denied.
Do counsel have any questions?
MR. WALKER: No, Your Honor.
MR. PEZOLD: No, Your Honor.
THE COURT: All right. Thank you. Court will be
in recess.
MR. STEPHENS: Thank you, Your Honor.

A34
THE CLERK: All rise.
(Concluded at 3:08 p.m.)

A35

/s/
,
Honorable Laurel E. Davis
United States Bankruptcy Judge
Entered on Docket
September 18, 2014
Eric S. Pezold (CA Bar No. 255657)
(admitted pro hac vice)
SNELL & WILMER L.L.P.
Plaza Tower, Suite 1400
600 Anton Boulevard
Costa Mesa, CA 92626-7689
Telephone: (714) 427-7000
Facsimile: (714) 427-77 99
Email: epezold@swlaw.com
Robert R. Kinas (NV Bar No. 6019)
SNELL & WILMER L.L.P.
3883 Howard Hughes Parkway, Suite 1100
Las Vegas, NV 89169
Telephone: (702) 784-5200
Facsimile: (702) 784-5252
Email: rkinas@swlaw.com
Attorneys for Creditors
SIG Capital, Inc. and Luxor Entertainment, LLC
UNITED STATES BANKRUPTCY COURT
DISTRICT OF NEVADA

A36

Case No. l3-20371-led
Chapter 7

In re
8SPEED8, INC.,
Debtor.

ORDER GRANTING
IN PART AND
DENYING IN PART
VIBE MICRO, INC.'S
MOTION: (1) TO DISMISS
INVOLUNTARY
CASE, OR IN THE
ALTERNATIVE, FOR
SUMMARY
JUDGMENT,
AND/OR (2) ABSTENTTON
PURSUANT To §
305(a)(1), AND (3)
AWARDING DAMAGES TO DEBTOR
Hearing Date: September l5, 20l4
Hearing Time: 3:00
p.m.
Hearing Location:
United States Bankruptcy Court

A37
Foley Federal Building, Courtroom No.3
300 Las Vegas Blvd South, Third Floor
Las Vegas, Nevada 89101
At the above referenced date and time, the Court
held a hearing on that certain Motion: (1) To Dismiss
Involuntary Case, or in the Alternative, for Summary
Judgment, and/or (2) For Abstention Pursuant to §
305(a)(1), and (3) Awarding Damages to Debtor (the
"VMI Motion to Dismiss") filed by Vibe Micro, Inc.
("VMI") on January 10, 2014 (Docket No. 9). SIG Capital, Inc. ("SIG"), a creditor and shareholder of
8SPEED8, Inc. ("8S8"), the involuntary debtor herein,
opposed the Motion. All appearances were entered on
the record.
Having considered the Motion and related pleadings, the record in this case, the arguments of counsel
and the findings of fact and conclusions of law as
stated on the record at the hearing, and good cause
appearing,
IT IS ORDERED that the Motion is granted in
part.
IT IS FURTHER ORDERED that the above-captioned case is dismissed with prejudice.
IT IS FURTHER ORDERED that VMI's request
for an award of damages in favor of the alleged debtor
is denied.

A38
IT IS FURTHER ORDERED that VMI's request
for an award of attorneys' fees and
costs is also denied.
///
///
///
///
///
///
///
///
///
///
///
///
///
///
///
In accordance with LR 9021, counsel submitting
this document certifies that the order accurately reflects the court's ruling and that (check one):
____ The court has waived the requirement set forth
in LR 9021(b)(1).
____ No party appeared at the hearing or filed an objection to the motion.
X I have delivered a copy of this proposed order to
all counsel who appeared at the hearing, and any unrepresented parties who appeared at the hearing, and
each has approved or disapproved the order, or failed

A39
to respond, as indicated below [list each party and
whether the party has approved, disapproved, or
failed to respond to document]:
Approved / Disapproved / Failed to Respond
BAUMANN LOEWE WITT & MAXWELL, PLLC
By: /s/
,
Kirk Nevada Walker (NV Bar No. 11315)
411 E. Bonneville Ave., Suite 100
Las Vegas, NV 89101
Tel: (702) 462-6300
Fax: (702) 462-6303
____ I certify that this is a case under Chapter 7 or
13, that I have served a copy of this order with the
motion pursuant to LR 9014(g), and that no party
has objected to the form or content of the order.
Respectfully submitted,
/s/
,
Robert R. Kinas (NV Bar No. 6019)
SNELL & WILMER L.L.P
3883 Howard Hughes Parkway, Suite 1100
Las Vegas, Nevada 89169
Telephone: 702.784.5200
Facsimile: 702.784.5252
Email:
rkinas@swlaw.com

